No.
IN THE SUPREME COURT OF THE UNITED STATES
BRYAN JAMES STROTHER, SFC.,
California Army National Guard,
Petitioner,
v.
DAVID S. BALDWIN, Adjutant General,
State of California Army National Guard;
MIKE MCCORD, Pentagon Comptroller;
DEFENSE FINANCE AND ACCOUNTING SERVICES;
United States Department of Defense,
Respondent.
CERTIFICATE OF COMPLIANCE WITH RULE 33.l(g)
I, Daniel C. Willman, counsel for Petitioner Bryan James Strother, hereby
certify that, according to the word-count tool in WordPerfect Corel, the Brief of
Petitioner consists of 8, 975 words, including footnotes and excluding the sections
enumerated by Rule 33. l(d). This Brief is compliant with Rule 33. l(g).

S/Daniel C. Willman
Daniel C. Willman
Counsel for Petitioner
P.O. 606
Pinckney, MI 49169
248-231-0705
danielcwillman@aol.com

Dated: August 16, 2019

